■

<*' . _

52

1/

Case No.

w
IN THE
SUPREME COURT OF THE UNITED STATES

§

DONALD R. CONWAY,
Petitioner,

v.
UNITED STATES OF AMERICA,
Respondent.

FILED
OCT 0 9 2020

ON PETITION FOR WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT

PETITION FOR WRIT OF CERTIORARI

DONALD R. CONWAY
Petitioner pro se
21792-032
Federal Medical Center
Post Office Box 14500
Lexington, Kentucky 40512

!

v

jU

r

QUESTIONS PRESENTED
1.

Did the Court of Appeals err or abuse its discretion when
upon reading Appellate Counsel's single-issue Brief, that,•
in context, was a matter of law already-decided in a binding
Circuit decision eighteen years earlier (and ergo frivolous),
that the Circuit did not consider Counsel's Brief a de facto
equivalent to a "no merits" Anders Brief, where such
designation sua sponte (alternatively, order to Counsel to
resubmit Brief under Anders) would have provided Appellant
with (a) the opportunity to raise his own issues; (b) a
review of the Record by the Court of Appeals; (c) and should
meritorious issues be discovered, the appointment of new
Appellate Counsel, that such a failure to act sua sponte
in so designating the Brief (or ordering Counsel to correct)
constituted Constitutional Due Process and/or Equal
Protection violations of Appellant?

2.

Did the Court of Appeals err or abuse its discretion when
it failed to recognize and address the Circuit's own
conflicting cases as cited in the Petition for Rehearing/
Rehearing En Banc, where such conflicts directly prejudiced
Appellant to understand exactly what the case law of the
Circuit was, and how to adapt his issues and arguments for
(a) submissions to the Court of Appeals; (b) Appellate
Review; and (c) avoidance of Procedural Default?
i

3.

As in Question Two, adding in the context of the case law
and/or actual practices of the Circuit being also in
conflict with the Supreme Court's rulings and case law?

4.

Did the Court of Appeals err or abuse its discretion when
it declined to Rehear or Rehear En Banc the instant case,
whose circumstances and Order were in conflict with its own
Circuit precedents and the Supreme Court, where herein the
Clerk of the Court issues denial Orders of a Constitutional
magnitude, beyond the ministerial duties of her Office,
prejudicing Appellant of his rights as outlined in Chapman
v. California, et al., in the Direct Appeal process, that
has subsequently created further prejudice by limiting issues
and triggering the higher bar for relief on §2255, where
procedural default must be overcome, and where only
Constitutional grounds, and not procedural matters, are
permissible?

ii

c

LIST OF PARTIES
1.

DONALD R. CONWAY,
Petitioner pro se.

2.

UNITED STATES OF AMERICA,
Respondent.
RELATED CASES

1.

UNITED STATES OF AMERICA V. DONALD R. CONWAY,
.Case No.

2:17-cr-0043

United States District Court for the Eastern District of
Kentucky
2.

UNITED STATES OF AMERICA V. DONALD R. CONWAY,
Case No.

18-6260

United States Court of Appeals for the Sixth Circuit

iii

TABLE OF CONTENTS
i-ii

QUESTIONS PRESENTED

X

LIST OF PARTIES

iii

RELATED CASES

iii
iv

TABLE OF CONTENTS

v

INDEX TO APPENDICES

vi-ix

TABLE OF AUTHORITIES
OPINIONS BELOW

1

JURISDICTION

1

CONSTITUTIONAL PROVISIONS

2-3

STATEMENT OF THE CASE

4-7
8-31

REASONS FOR GRANTING THE WRIT

8

PRO SE STATEMENT

9-12

SUMMARY

13-31

DISCUSSION AND ARGUMENT

32

CONCLUSION

iv

*1

INDEX TO APPENDICES
APPENDIX "A"

Court of Appeals Order of 4-24-2020 in 18-6260
affirming the District Court.

APPENDIX "B"

Court of Appeals Order of 7-29-2020 in 18-6260
denying Petition for Rehearing/Rehearing En Banc.

APPENDIX "C"

District Court Conviction and Sentencing on
11-30-2018 in 2:17-cr-0043.

APPENDIX "D"

Order from Magistrate Judge admonishing Petitioner
to refrain from submitting filings while repre­
sented by Counsel. Dkt. 52, 8-08-2018.

APPENDIX "E"

Correspondence from Appellant to Appellate Counsel.

APPENDIX "F"

Clerk's denial of Appellant's request for new
Appellate Counsel. Dkt. 45, 11-25-2019.

APPENDIX "G"

Appellant's Motion for new Appellate Counsel,
containing the evidence and grounds requested by
the Clerk, as cited in Dkt. 45.
Dkt. 48, 12-16-2019.

APPENDIX "H"

Clerk's denial of Appellant's Dkt. 48 request
for new Appellate Counsel. Dkt. 50, 1-09-2020.

APPENDIX "I"

Motion for Reconsideration of the Clerk's denial
of Dkt. 50. Dkt. 53, 2-03-2020.

APPENDIX "J"

Petition for Rehearing/Rehearing En Banc.

APPENDIX' "K"

Docket Sheets. See also, TITLE PAGE for
further detail.

v

**

TABLE OF AUTHORITIES
Supreme Court Cases
Anders v. California
i, 11, 13, 14, 22, 24, 25, 27, 30
386 U.S. 738, 87 S.Ct. 1396, 1400 (1967)
Beckles v. United States
1 37 S.Ct. 886 (2017)

25

Chapman v. California
386 U.S. 18 (1967)

ii, 13, 22

Douglas v. California
372 U.S. 353 (1963)

14, 24, 30

Erickson v. Pardus
551 U.S. 89 (2007)

8, 16, 30

Evitts v. Lucey..
469 U.S. 387, 403

.15

Glebe v. Frost
574 U.S.
, 190 L.Ed 2d 317 (2014)

27

Goeke v. Branch........................
514 U.S. 115, 119-20 (1995)

14

Griffin v. Illinois
351 U.S. 12 (1956)

14

Haines v. Kerner..............
404 U.S. 519, 520 (1972)

8, 9, 13, 15,-16, 17, 30

Jones v. Barnes.......................
463 U.S., 745, 751-52 (1989)'

14, 15, 31

Kernan v. Cuero............
199 L.Ed 2d 236, 242 (2017)

27

Lehman Brothers v. Schein
416 U.S. 386, 393 (1974)

13

Martinez v. Court of Appeals of California
. 528 U.S. 152, 160 (2000)
McKaskle v. Wiggins.....
465 U.S. 168, 183 (1984)

14, 23
20, 21

vi

.[■

Supreme Court Cases (continued)
12, 28

Pennsylvania v. Finley..
481 U.S. 551, 554 (1987)
Penson v. Ohio.
488 U.S. 75, 85

13, 14, 25

Smith v. Murray..................
477 U.S. 527, 536 (1986)

14, 15, 31

Smith v. Robbins...
528 U.S. 259 (2000)

28

Strickland v. Washington
466 U.S. 668 (1984)

15

United States v. Frady..
456 U.S. 152, 166 (1982)

12
29, 30

United States v. Gonzalez-Lopez
548 U.S. 140, 151 (2006)
Circuit Court Cases
Allen v. United States....................
938 F.2d 664, 666 (6th Cir. 1991)

25

Boyd v. Cowan..................................................................
494 F.2d 338, 339 (6th Cir. 1974)

26

Carpenter v. Morris.....................................................
U.S. App LEXIS 155555, at 6 (6th Cir. 1990)

29, 30

Childress v. Booker.....................................................
U.S. App LEXIS 11015, at 3 (6th Cir. 2015)

20, 21, 22

Greer v. Mitchells...............................
264 F.3d 663, 676 (6th Cir. 2001)

.31

Ludwig v. United States....................
162 F.3d 456, 459 (6th Cir. 2000)

25

McMeans v. Brigano...............................
228 F.3d 674, 684 (6th Cir. 2000)

22

Miller, v. United States............... .......................
561 Fed,Appx 485, 488 (6th Cir. 2014)

22

Salmi v. Sec'y of Health and Human Services
774 F.2d 685, 689 (6th Cir. 1985)
vii

22, 23, 26

Circuit Court Cases (continued)
Shaw v. Wilson........................................
721 F.3d 908, 915 (7th Cir. 2013)

28

United States v. Angel......................
355 F.3d 462, 465 (6th Cir. 2003)

22

United States v. Borought................
649 F.3d 887, '890 (8th Cir. 2011)

27

United States v. Cole.............
496 F.3d 188 (2nd Cir. 2007)

17

United States v. Delgado.........
350 F.3d 520, 527 (6th Cir. 2003)

22

United States v. Gutierrez.................................
U.S. App LEXIS 20647, at 2 (6th Cir. 2017)

25, 26
27

United States v. Meeks...........
639 F.3d 522 (8th Cir. 2011 )

20, 21, 22, 23

United States v. Mosely....
810 F.2d 93 (6th Cir. 1987)
United States v. Wright........... .....................
43 Fed Appx 848, 852-53 (6th Cir. 2002)

29

United States v. Young......................
424 F.3d 499, 508 (6th Cir. 2005)

17

United States v. Zingsheim.............
384 F.3d 867, 870 (7th Cir. 2004)

17

District Court Cases
Pacheco v. Ryan......................................................................
U.S. Dist LEXIS 174007, at 9 (Dist. of AZ, 2008)

25

Constitutional Provisions
Amendment I

2

Amendment V

2
2-3

Amendment XIV
viii

*

Statutes and Codes
Federal
18 U.S.C. §922(g)

4

21 U.S.C. §841

4

21 U.S.C. §851

. .4

28 U.S.C. §1254(1)

1

28 U.S.C. §2254(d)(1 )

27

28 U.S.C. §2255

28

State
Ohio Rev. Stat. §2925.03(A)(2)

29

United States Sentencing Guidelines
§4B1.1

29

Texts
Church, William S., Treatise on Writ of Habeas Corpus
§363, Pub. 1886, 2013 Ed.

ix

28

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI

Petitioner respectfully prays that a Writ of Certiorari issue to
review the judgment below.
OPINIONS BELOW
The opinion of the United States Court of Appeals for the Sixth
Circuit in Case 18-6260 appears at APPENDIX "A", and is unpublished.
The opinion of the United States Court of Appeals for the Sixth
Circuit in Case 18-6260 denying Rehearing and Rehearing En Banc
appears at APPENDIX "B", and is unpublished.
The judgment and sentencing of the United States District Court
for the Eastern District .of Kentucky in Case 2:17-cr-0043 appears
at APPENDIX "C", and is unpublished.
JURISDICTION
The United States Court.of Appeals for. the Sixth Circuit issued
its Order affirming the District Court judgment and sentencingon April 24, 2020.
The United States Court of Appeals for the Sixth Circuit denied
the Petition for Rehearing/Petition for Rehearing Enbanc on
July 29, 2020.
The jurisdiction of the Court is invoked under 28 U.S.C. §1254(1).
1

CONSTITUTIONAL PROVISIONS INVOLVED
Amendment I.
Congress shall make no law respecting an establishment of
religion, or prohibiting the free exercise thereof; or abridging
the freedom of speech, or of the press; or the right of the
people peaceably to assemble, and to petition the Government for
a redress of grievances.
Amendment V.
No person shall be held to answer for a capital, or otherwise
infamous crime, unless on a presentment or indictment of a Grand
Jury, except in cases arising in the land or naval forces, or in
the Militia, when in actual service in time of War or public
danger; nor shall any person be subject for the same offence to
be twice put in jeopardy of life or limb; nor shall be compelled
in any criminal case to be a witness against himself, nor be
deprived of life, liberty, or property, without due process of
law; nor shall private property be taken for public use, without
just compensation.
•Amendment XIV.
Section 1.

All persons born or naturalized in the United States,

and subject to the jurisdiction thereof, are citizens of the
United States and of the State wherein they reside.

No State

shall make or enforce any law which shall abridge the privileges

2

or immunities of citizens of the United States; nor shall any
State deprive any person of life, liberty, or property, without
due process of law; nor deny to any person within its jurisdiction
the equal protection of the laws.

3

•*

STATEMENT OF THE CASE
1.

Petitioner was charged with 21 U.S.C. 841 Possession with
Intent to Distribute Heroin; 21 U.S.C. §841 Possession with
Intent to Distribute Cocaine; and 18 U.S.C. §922(g) Felon
in Possession of a Firearm, in the United States District
Court for. the-Eastern District of Kentucky; Case Number
2:17-cr-0043.

2.

The Office of the United States Attorney filed its Indictment
and a 21 U.S.C. §851(a)(1) Notice on 11-09-2017.

3.

During the District Court proceedings,
(A)

Petitioner sought new Defense Counsel via correspondence

construed as a Motion;
(B)

Petitioner was granted new Counsel;

(C)

Petitioner submitted other correspondence and motions

without Counsel;
(D)

Petitioner was admonished by the Magistrate Judge to

not submit motions unless by and through Counsel.

See,

APPENDIX "D", 2:17-cr-0043, DKT. 52, 8-08-2018.
4.

Petitioner proceeded to bench trial and was found guilty of
Counts One and Two on 11-30-2018, and was sentenced to a term
Of incarceration for 192. months for each count, to be served
concurrently.

See, APPENDIX "B".

4

4-

5.

On Direct Appeal, the Sixth Circuit Court of Appeals
appointed Andrew Avellano as Appellate Counsel for Petitioner
on 12-11-2018, Appeal Number 18-6260.

6.

Petitioner sent numerous correspondence to Appellate Counsel
regarding the Brief of Appellant, cooperative effort on the
Brief, suggested issues, instructions, requests, etc.

The

correspondence from Petitioner to Appellate Counsel were all
sent by USPS Certified Mail (except one).

All Certified Mail

correspondence sent by Petitioner were successfully delivered,
and confirmed by USPS tracking.
7.

See, APPENDIX "E".

Absent critical communication and cooperation from Appellate
Counsel (see, APPENDIX "I", pgs. 13-14), Petitioner sought
dismissal of Counsel and appointment of new Appellate Counsel,
doing so in the same manner that had proven acceptable to
the District Court Clerk and Magistrate Judge, and had been
liberally construed by the Magistrate as a Motion, who granted
same.

8.

See, Appeal 18-6260, Dkt. 31, 7-17-2019.

The Clerk of the Court of Appeals, and not a Judge or
Magistrate, denied the request, stating in part that
Petitioner stated no grounds with evidence to support his
request.

See. APPENDIX "F".

See also, 17. below, page 7.

5

9.

Immediately upon receipt of the Clerkls Denial,"Petitioner
assembled the evidence and grounds required by the Clerk,
and authored a full motion with Exhibits, and submitted
same to the Court.

Dkt. 48, 12/16/2019.

See, APPENDIX "G";

see also, APPENDIX "E".
10.

The Clerk again denied Petitioner's request for new Counsel,
despite Petitioner having met the evidentiary standards set =
by the Clerk in the previous denial.

This second denial

cited reasons/grounds for denial never previously articulated
in the first denial.
11 .

Dkt. 50,1-09-2020.

See, APPENDIX "H".

Neither request/motion for new Counsel was decided by a
member of the Federal Judiciary, appointed by the President,
but instead was solely decided by the Clerk of the Court.

12.

Appellate Counsel submitted Brief of Appellate on 11-12-2019.

13.

On 2-03-2020, Petitioner filed a Motion for Reconsideration
(Dkt. 53) respective to the denial of Dkt. 50 on 1-09-2020.
See, APPENDIX "I".

14.

The Panel decision in 18-6260 was issued on 4-24-2020.
Most importantly, it stated that the single issue submitted
by Appellate Counsel Avellano was a matter already decided
and fully foreclosed in a binding Sixth Circuit decision
dating from 2002, eighteen years ago.

6

See, APPENDIX "A".

15.

Petitioner sought Rehearing/Rehearing En Banc in a pro se
motion mailed 6-01-2020 (filed 6-08-2020), Dkt. 57.
See, APPENDIX "J".

16.

The Sixth Circuit denied the Petition for Rehearing/
Rehearing En Banc on 7-29-2020, with no members of the
Court voting for En Banc review.

17.

NOTE:

See, APPENDIX "B".

On 3-21-2019 (Dkt. 23), and 7-17-2019 (Dkt. 31),

Petitioner sent copies of his correspondence to Appellate
Counsel to the Clerk of the Court, to establish for the
record Petitioner's efforts in his Direct Appeal, and
should the matter become an issue, to document the actions
of appointed Appellate Counsel through non-response to
the correspondence of Petitioner, as well as non-cooperation
and inattentiveness to his client, despite his assurances
to the contrary,

This entire set of correspondence was

in the possession of the Clerk at the time of her denial,
despite her statement that, "The defendant has not demon­
strated grounds for the appointment of new counsel."
. See, APPENDIX."F", lines 3-4, Denial of 11-25-2019.
Compare to APPENDIX "E", aforementioned set of correspondence.
See also, TITLE PAGE to APPENDIX "K" for further detail.
The entire set of correspondence was again submitted to the
Clerk with his second request, APPENDIX "G", and was sub­
mitted yet a third time in his Rehearing/Rehearing En Banc
Motion.

See, APPENDIX "J".

Petitioner made the Circuit

•aware of the circumstances on four occasions without relief.
7

u .

REASONS FOR GRANTING THE WRIT
(Argument/Discussion)
Petitioner appears pro se and humbly prays the Honorable
Court liberally read and favorably construe the instant Motion,
accepting all asserted facts as true in consideration of his lack
of legal training.

Haines v. Kerner, 404 U.S. 519-520 (1972);

Erickson v. Pardus, 551 U.S. 89 (2007).

This is the same pro se

statement requesting liberal construction be applied in his motions
sent to the Court of Appeals, for substitution of Appellate
Counsel (answered by the Clerk, not a Judge), and the Motion
for Reconsideration, as well as the Petition for Rehearing/
Petition for Rehearing En Banc following the Order in the Appeal.
The questions and the underlying events upon which they are
based all arise from an interconnected set of actions and
circumstances, where particular elements are applicable in more
than one question.

As such, some liberal construction will be

necessary.
Whereas the STATEMENT OF THE CASE is a formalized chronology
of events, Petitioner sets forth the following Summary, under
penalty of perjury, to encapsulate the errors in his case, so as
to determine where Due Process, Equal Protection, or 'Access to
the Court' rights were violated, and by whom, under what
circumstances, and in what context.
8

Summary of Events
The detailed presentation in the STATEMENT OF THE CASE, and
the contents of the APPENDICES provide the documented support
for the following Summary.
1.

Petitioner sought substitution of Counsel at the District
Court.

He wrote to the Court in letter form.

2.

The Clerk of the Court did not decide the matter.

3.

The Clerk presented the letter to the Magistrate, who
construed the letter as a Motion, and granted same.

4.

Petitioner sent other letters and Motions while represented
by Counsel.

The Magistrate admonished Petitioner and directed

him to send all Motions through his attorney.
In number 3 above, Petitioner learned about the Haines v. Kerner
liberal construction principle.

In number 4 above, Petitioner

learned about the concept of "hybrid representation" and that the
Sixth Circuit directs defendants to contact the Court via Counsel
and not directly.
5.

Petitioner was found guilty and filed Notice of Appeal.

6.

Andrew Avellano was appointed by the Circuit as Appellate
Counsel.

7.

Petitioner repeatedly sent correspondence to Counsel via
Certified Mail.

Counsel was not timely nor consistent with

replies.
9

8.

Counsel repeatedly submitted Motions for Extensions of Time.
Despite this, his communication/cooperation with Appellant
was negligible.

9.

Petitioner sent filings to the Court consisting of his
correspondence with Counsel, to establish for the record
that Appellant was engaged in the process, although it
was not so engaged by Appellate Counsel Avellano. 1

10. Petitioner sent a letter to the Court requesting new Appellate
Counsel. 1
NOTE:

This was the same method that was employed in the District

Court, where the Clerk forwarded the Motion to the Magistrate,
who, following the liberal construction standard, appointed new
Counsel.
11. At the Circuit Court, however, the Clerk did not forward the
request to any Judge or Magistrate.
12. The Clerk denied the request.
13. The Clerk set forth in the Order certain requirements for
such a request to be granted. 1
14. Petitioner wrote an entirely new Motion, specifically
addressing the elements listed in the Clerk's denial,
to include an additional complete set of the correspondence
sent to Appellate Counsel up to that point, for considera­
tion with the Motion."*
15. Again, the Clerk did not forward Appellant's Motion to a
Judge or Magistrate.
1.

See, Statement of the Case7 N6.--17 for detailed account.
10

16. Again, the Clerk denied Petitioner's Motion.
17. The second Motion was denied on grounds never listed in the
first denial, where, had they been listed, Petitioner would
have been given notice, and Petitioner would have complied.
18. Appellate Counsel submitted the Brief of Appellant.
19. The Brief contains only one issue.

It is an issue that had

already been decided 18 years earlier in the Sixth Circuit
(and had never been overturned).
20. The Panel denied the Appeal, and affirmed the District Court.
21. In the ORDER, the Panel stated that the argument proposed
by Counsel had already been decided in 2002.
22. The single issue submitted by Appellate Counsel was the
epitome of frivolous.
23. Despite the circumstances, the Sixth Circuit did not
a.

return the Brief to Counsel with instructions to either
submit a new "merits" brief; or

b.

to file an Anders Brief, if the single frivolous issue
was all that Counsel could determine as meritorious.

Had the Panel taken such action, which is well within their
authority, the Anders procedure would.have guaranteed to
Petitioner that the entire Record of the Case would have been
fully reviewed by the Panel, and, Petitioner would have been
able to submit his own Brief, and, should other issues be
detected by the Panel, new Counsel would have been appointed.
Anders v. California, 386 U.S. 738, 87 S.Ct. 1396, 1400 (1967).
11

24. Even prior to the Panel's decision, Petitioner sought to
Strike the Brief after having seen the Brief for the first
after its submission, when Petitioner himself had
discovered the worthlessness of the Brief and its 'dead'
issue.

See, APPENDIX "G".

25. A Petition for Rehearing/Petition for Rehearing En Banc
was filed, addressing the issues stated above, among others.
The Petition contained examples of conflicts within the Sixth
Circuit as well as with the Supreme Court,

The Petition also

addressed the Constitutional magnitude of a Clerk issuing
denials on Motions of Constitutional significance, namely, the
Due Process right to Counsel on Direct Appeal.

The Petition

stated the prejudice Petition would suffer should the Court not
take action, that his claims would need to clear the "significantly
higher hurdle" for relief standard on §2255 (United States v.
Frady, 456 U.S. 152, 1 66 (1 982)), where, unlike Direct Appeal,
a Petitioner on §2255 collateral attack has no right to have
counsel appointed.

Pennsylvania v. Finley, 481 U.S. 551, 554

(1987).
26. The Petition was.denied by the Sixth Circuit. . No Judge
voted for En Banc consideration, despite the internal Circuit
conflicts, the conflicts.with the Supreme Court, and the
Constitutional implications.
12 -

Discussion and Argument
The situation Petitioner finds himself, and the" manner
by which he arrived there appears to have never previously been
addressed by this Court.

The situation itself should have never

occured, given the robust and clear instructions from this Court,
Haines v. Kerner, 404 U.S. 519-20 (1972); Anders v. California,
386 U.S. 738, 87 S.Ct. 1396, 1400 (1967); Chapman v. California,
386 U.S. 18 (1967), Penson v. Ohio, 488 U.S. 75, 85 (1988); et
al.

However, in Petitioner's case, Sixth Circuit case law was

at times in conflict with itself, as well as the actual practice
and procedures of the Sixth Circuit Court of Appeals.

It is

hornbook law that a collateral attack shall not be a substitute
for an Appeal.

Where, in this case, the de facto denial of that

Appeal transpired, by means in conflict with this Court and the'
other Courts of Appeals, the Due Process and Equal Protection
clauses of the Constitution and Petitioner's rights thereunder
have been violated.

This Court should, in consideration of

Supreme Court Rule 10, grant the instant Petition due to the
conflicts as stated above and herein, as well as the Federal
question inherent in the subject matter of Federal criminal
Direct Appeals.
"The authority which Congress has granted this Court
to review judgments of the courts of appeals undoubt­
edly vests us not only with the authority to correct
errors of substantive law, but to prescribe the method
by which those courts go about deciding the cases
before them." Lehman Brothers v. Schein, 416 U.S. 386,
393 (1974)(Rehnquist, J., concurring).
13

The guideposts to Direct Appeals are well-settled.

The United

States Constitution makes no express mention of criminal appeals
or any rights thereto.

Martinez v. Court of Appeals of Califor­

nia, 528 U.S. 152, 160 (2000)(no Constitutional right to appeal
a criminal conviction); Goeke v. Branch, 514 U.S. 115, 119-20
(1995)("due process does not require a State to provide appellate
process at all.").

However, when it does provide such a right to

Appeal, it cannot discriminate against the poor by failing to
provide the necessary transcript.
12 (1956).

Griffin v. Illinois, 351 U.S.

Furthermore, counsel must be appointed on appeal of

right for indigent criminal defendants.
372 U.S. 353 (1963)

Douglas v. California,

In 1964, the Criminal Justice Act was

enacted, partially to fulfill this right for indigent criminal
defendants, in part by earmarking funds for the remuneration of
appointed counsel.

Where counsel is appointed for appeal but

concludes there are no nonfrivolous issues for appeal, he must
file a brief in accordance with Anders v. California, 386 U.S.
738 (1967).

Counsel on appeal is not required to argue every

nonfrivolous issue (Jones v» Barnes
and should
on

II I

463 U.S. 745, 751-52 (1989)),

winnow[] out weaker arguments on.appeal and focus[]

those likely to prevail." Id. (quoting Smith v. Murray, 477

U.S. 527, 536.(1986).

There is no Constitutional right to self-

representation on appeal (Martinez, 528 U.S. at 160), and a
defendant cannot be forced to proceed in an appeal without
counsel.

Penson v. Ohio, 488 U.S. 75, 85 (1988).

Due Process

guarantees effective assistance of counsel on first appeal of
14

right.

Evitts v. Lucey, 469 U.S. 387, 403 (1985)(once a state

grants the right to appeal it must follow procedures comporting
with Due Process clause of 14th Amendment).

Lastly, both Smith v.

Murray, 477 U.S. 527 (1986) and Jones v. Barnes, 463 U.S. 745
(1989) provide that the analysis from Strickland v. Washington,
466 U.S. 668 (1984) is the appropriate method to determine and
ineffective assistance of Appellate Counsel within a collateral
attack.
Nowhere within the cases cited above does this Court expressly
(or impliedly) designate appointment of appellate counsel dicisions to the Clerk of the Appellate Court.

In the above cases,

the plain reading is that the Supreme Court has tasked the Courts of
Appeals to take action to uphold Constitutional rights of those
on appeal, and to safeguard against any violation of the rights
of a defendant on appeal.

Should a Court of Appeals reassign

these duties to a Clerk, it is incumbent upon that Court to the
provisions of the Constitution as elucidated in the cases above
are fully protected.

The Clerk of the Court of Appeals is, in

effect, an agent of the Court of Appeals.

Errors or failures by

the Clerk are not his or her personal failures, but instead are
errors made on behalf of the entire Court of Appeals.
Submissions made to the court by a non-attorney are entitled
to liberal construction.

Haines v. Kerner,
15

404 U.S. 519-20

(1972); see also, Erickson v. Pardus, 551 U.S. 89 (2007).

To

the best of Petitioner's understanding, these cases also are
instructive cases from this Court, to provide guidance and
direction to the lower courts.

In this instance also, it is

the Court itself, the Judiciary, and not its employees or
staff who are the recipients of this Court's instructions.
Any permission, license, or rule provided by a Court of Appeals
or a District Court to its Clerk is merely a reassignment of the
task, not the responsibility of compliance or fulfillment.

It

is the Court that is responsible for the correct application of
Haines - of Erickson, for example, where either the submitting
defendant invokes pro se construction , or where the Court
recognizes same without citation and sua sponte applies liberal
construction through the Court's discretionary authority. 2 • 3
Neither Haines nor Erickson charge any Clerk directly with any
duties,expressly.

Impliedly, however, such a citation by a

pro se litigant should inform a Clerk of the Court to be
cautious, and present the submission to a sitting judge or
magistrate.

Even in the cases where Clerks may be experienced

and well-versed in particular matters, they must be conscious
of the fact that they are not Presidentially-appointed members
of the Judiciary, they are employes, valuable employees in the
justice system, but with limited powers and authority.
1 . See, e.g., APPENDICES "G", "I", "H", 18-6260.
'
^ •
T
2. See, e.g., APP. "D" Magistrate Order of 8-08-18, 2:17-cr-0043.
3. In either event, the Clerk must have first presented the
submission to the Judge or Magistrate.
16

In arguendo, if the Sixth Circuit made provisions under
Circuit Rule 45 for the Clerk to dispositively process or deny
motions (unknown to pro se Petitioner' with limited prison re­
sources) , Petitioner contends that same Rule or• license .under same
must, in practice, not offend the Constitutional rights of
Appellants, must not contradict the rulings of this Court,.
Congress, the Federal Rules, and the Judicial Council.

See,

e.g., United States v. Young, 424 F.3d 499, 508 (6th Cir. 2005)
"The bottom line is this: where Congress has
provided a specific panopoly of rules that must
be followed, the [] court's discretionary powers
simply do not come into play."
Also, United States v. Cole, 496 F.3d 188 (2nd Cir. 2007)(stand­
ing orders must be consistent with Federal Rules), and United
States v. Zingsheim, 384 F.3d 867, 870 (7th Cir. 2004)(standing
orders by Circuit must be approved by Judicial Council).
As explained in the Statement of the Case, Summary, and as
evidenced in APPENDIX "D", irrespective of any Circuit or District
Court Rule, the Clerk of the District Court, upon receipt of the
Petitioner's submission of 12-6-2018 (new counsel) gave same to
Magistrate CCiaaadace J. Smith, who applied the Haines v. Kerner,
standard of liberal construction.

See, Dkt. 17, 2-8-2018:

"Defendant'£ 2/6/2018 letter is construed as a
motion for appointment of new counsel.... Signed by
Magistrate Judge Candacec J. Smith...."
(emphasis added)
And again at Dkt. 19, 2-14-2018, "Defendant's construed Motion
for New Counsel is GRANTED." (Magistrate J. Smith)(emphasis added).
17

*

The Clerk of the District Court correctly forwarded the
letter of Petitioner to the Magistrate Judge.

The Clerk did not

reject the letter due to Petitioner already having been appointed
an attorney, nor did the Clerk of the District Court rule on the
letter in the manner of a Judge or Magistrate.

The Magistrate

having received the submission, construed the letter correctly,
and despite Petitioner already having been appointed counsel at
that point, saw fit to appoint new counsel, in an abundance of
caution, no doubt, given the Constitutional and Due Process
implication.

In other words, the system worked as it should work.

By comparison, Petitioner's first submission to the Court
of Appeals concerning dismissal of Appellate Counsel and the
appointment of new representation, was not forwarded to a Judge,
and therefore was not given liberal construction by a Judge.
Furthermore, the Order denying the appointment of new counsel was
not made by a Judge, but rather by the Clerk of the Court of
Appeals.

See, APPENDIX "F".

It is important to note that the

Order stated, "The defendant has not demonstrated grounds for the
appointment of new counsel."

The record shows otherwise.

On

3-21-2019 (Dkt. 23), and 7-17-2019 (Dkt. 31), Petitioner had
provided to the Clerk (for Court submission) copies of the
correspondence Petitioner had with Appellate Counsel, documenting
the increasing problems in the preparation of the Brief, despite
Petitioner's best efforts.

If the Clerk made the decision in

APPENDIX "F" denying appointment of new counsel (11-25-2019),
18

the Clerk did not properly construe the previous submissions in
context with the submission requesting appointment of new counsel.
Had the submissions been submitted to a Judge or Magistrate, the
liberal construction standard would have applied, and the Court
may have construed the matter in toto, given Petitioner's lack
of legal training, construing the previous submissions as the
'grounds'5 upon which the request for new counsel was based.
Where the District Court Clerk's actions were fair and neutral,
those of the Appeals Court Clerk were prejudicial and violated
the Due Process and Equal Protection rights of Petitioner
irrespective of any underlying Circuit Rule.

A:\

Did the Circuit,

in its formulation of Circuit Rule 45 envision a circumstance
such as Petitioner's, where liberal construction (not a duty of
the Clerk) would intersect with a request or submission (such as
one of Constitutional significance, i.e., representation on
appeal) that would, by its nature be squarely located outside the
ministerial/clerical realm of duties of the Clerk?

It can be

argued that the Circuit believed that the Clerk would exercise
correct judgment in situations such as Petitioner's, but in
actuality, it did not occur.
When, on 12-16-2019 (Dkt. 48) Petitioner submitted a new
Motion, to meet the threshhold of "new grounds" stated by the
Clerk, he resubmitted all of the previously submitted correspon­
dence, as EXHIBITS with the Motion.

A full Summary of the corr-

spondence was also newly typed and included, as Petitioner could
not be sure whether the Clerk (or the Court) would recall the
4.

When a Clerk of the Court blocks access to a member of the
Judiciary, the First Amendment 'access to the courts' right
is implicated.
19 •-

*•

original submissions (they were not recalled during the itiost
recent submission).

The Motion was 16 pages, and with the

Correspondence and Correspondence Summary, over 60 pages.

The

Motion also-contained a declaration of pro se status, citing
Haines arid Erickson, and specifically requesting liberal pro se
construction.

See, APPENDIX "G".

Irrespective of Petitioner's

particular pro se liberal construction request, the Motion was
denied by the Clerk on 1-09-2020 (Dkt. 50),, without any Judicial
review or construction.
It is important to note, for context, and for understanding
of Petitioner's actions in first sending the sets of correspon­
dence and then submitting a letter (with some trepidation),1 rather
than a Motion for new counsel.

On the one hand, sending a letter

at the District Court level was forwarded to the Court, and the
letter was construed, and the request was granted.
submission to the Court was also sent.
by the Clerk to the Court.

A later

It too, was forwarded

The response, as stated above,

instructed Petitioner to not submit things to the Court because
he had (as he read it, "new") counsel,
why this would be forbidden.

Petitioner investigated

His research led him to McKaskle

v. Wiggins, 465 U.S. 168, 183 (1984)(no Constitutional right to
"hybrid representation").

This,,in turn led him to United States

v. Mosely, 810 F.2d 93 (6th Cir. 1987)(Sixth Circuit discourages
"hybrid representation").

(Cited on page 1 of APPENDIX "G").

On page 15, Childress v. Booker, U.S. App. LEXIS 11015 0 3 (6th
20 -

vy

Cir. 2015)/(The "court also has the discretion to allow hybrid
representation.").

At the time of Petitioner's APPENDIX "G"

Motion, he believed that perhaps the "hybrid representation"
issue had partially caused his correspondence submissions to
not be filed, as they did not come from the attorney himself.
By citing Childress v. Booker, Petitioner sought to advocate
that he could make a submission of a "true" Motion, and when
he cited the pro se standards, that the Motion would not be
subject to non-Judicial review or 'gatekeeping'.
to be the case.
denied.

This was not

As explained above, this Motion was also

See, APPENDIX "H".

APPENDIX "I" was a Motion for

Reconsideration, and that was also denied, but in a bizarre
way, some solace could be taken that there was evidence of the
Circuit itself — this Order was not issued by the Clerk.
For the Rehearing / Rehearing En Banc, Petitioner cited to
the Circuit its conflicting holdings regarding whether or not
"hybrid representation" was or was not permitted, and if so,
under what circumstances.

And, were these holdings, like McKaskle ^

itself, concerned primarily with such representation, as it
existed at trial, and even if so, did that extend to a Brief
without Oral Argument on Appeal?

Mosely was decided in 1987,

and if the Sixth Circuit obeyed its own self-imposed policy,
namely, that no Panel decision can be overturned by another Panel,
but only by a decision by the Circuit sitting En Banc, the
21

tf.

4'

matter of "hybrid representation", and subsequently, Petitioner's
understanding on how to process would have been more clearly
informed.

See, Salmi.v. Sec'y of Health and Human Services,

774 F.2d 685, 689 (6th Cir. 1985)(panel decisions are binding on
later panels, and only a Rehearing En Banc may overturn a binding
5
panel decision).
The relevance to this, and to Petitioner's need to communi­
cate with the Circuit, and to effectly communicate in order to
obtain new appointed counsel becomes strikingly clear when an
examination of Appellate Counsel's single-issue Brief is made.
Even if the issues of non-communication from Counsel is set
aside and his effectiveness, as matters better addressed on
Ineffective Assistance of Appellate Counsel claims on §2255,
the stupifying audacity of Counsel to have submitted a "merits
brief" on a matter decided in a panel decision 18 years earlier
is another affair entirely.

In consideration of the Brief,

Appellate Counsel should have either continued to search for a
meritorious issue, or submitted the one he had chosen under
an Anders v. California framework.

The matter, in other words,

is greater than mere incompetence, it is the undermining of
the Chapman v. California protections and the Anders v. Cali­
fornia guarantees thereof.
5.

Mosely (1 987) and McMeans v. Brigano, 228 F.3d 674, 684 (-6th
Cir. 2000) ( ":No hybrid") ; United States v. Delgado, 350 F.3d 520
527 and United States v. Angel, 355 F.3d 462, 465 (6th Cir.
2003)("Yes hybrid"); then Miller v. United States, 561 Fed Appx
485, 488 (6th Cir. 2014)"No" again; then Childress, (2015) "Yes"
- 22

A'

When the Direct Appeal process began, and once Petitioner
learned who the appointed attorney was, he sent his first (of
many) communications to him via Certified Mail on 2-13-2019.
From this first letter, Petitioner made clear his concerns
about the "hybrid representation" issue, claims to be made on
appeal, and his eagerness to cooperatively work with Appellate
Counsel.

See, APPENDIX "E", first letter.

Little did Peti­

tioner know at that time, that his documented concerns would
bear out.
"I have heard horror stories from fellow inmates that tell of
Direct Appeals being submitted on the final date before due • ■
without the Appellant ever having seen any working draft and/or
without any cooperative effort between Appellate Counsel and
Appellant. TO say it another way, I want to see a rough draft,
for purposes of accepting or rejecting it prior to submission,
so that if I cannot endorse it, I can take steps to obtain
different Counsel before the Brief is formally put before the
Court. I want a Brief of Appellant, co-authored by you and I,
with my contributions and issues addressed, and not a Brief for
Appellant written without my cooperation and/or consent."
-correspondence of 2-13-2019, page 2.
The remaining contents of APPENDIX "E" show that Petitioner was
at all-times attempting to be contributory partner in his Appeal
efforts, but to no avail.

At the time, Petitioner knew the

following, from his experience at the District Court with the
Magistrate, and his reasearch that,

(1) if Salmi was the rule,

then Mosely was the binding Circuit position on "hybrid represen­
tation, and therefore, other than a request for new counsel, he
could not submit any substantive Motions, to include a substitute
Brief of Appellant, and (2) because Martinez stated there was no
23

Constitutional right to self-representation on appeal, Peti=
tioner would need to have counsel of some sort in order to file
any Brief at all.
For the purposes of this case, the most relevant quote from
Douglas v. California, 372 U.S. 353 (1963 is as follows:
"[T]he rich man, who appeal as of right, enjoys
the benefit of counsel's examination into the
record, research of the law, and marshalling of
arguments on his behalf, while the indigent...
is forced to shift for himself."
It was from this background that the Anders v. California protocols emerged, to ensure that those reliant on appointed
appellate counsel would receive a minimal standard of repre­
sentation and advocacy.
"[Counsel's] role as advocate requires that he
support his client's appeal to the best of his
ability. Of course, if counsel finds his case to
be wholly frivolous, after a conscientious exam­
ination of it, he should advise the court and
request permission to withdraw. That request
must, however, be accompanied by a brief referring
to anything in the record that might arguably
support the appeal. A copy of counsel's brief
should be furnished the indigent and time allowed
him to raise any points that he chooses; the
then proceeds, after
court
not counsel
a full examination of all the proceedings, to
decide whether the case is wholly frivolous.
If it so finds it may grant counsel's request
to withdraw and dismiss.the appeal....
On the other hand, if it finds any of the legal
points arguable on the merits (and therefore not
frivolous) it must, prior to decision, afford
the indigent the assistance of counsel to argue
the appeal." Anders, 87 S.Ct. at 1400.
(emphasis added).
24

b

•

/i

In Penson v. Ohio, 488 U.S. 75, 82-82 (1988), this Court
reaffirmed Anders and stated that when Appellate Counsel files
an Anders Brief, it represents Counsel's objective professional
determination that there are no "non-frivolous" issues to
appeal, and that after such a Brief is filed, the Court of
Appeals is required to conduct an independent review of the record.
Conversely, when a "merits brief" is filed, there is no such
review requirement.

See, e.g., Pacheco v. Ryan, U.S. Dist LEXIS

174007, at 9 (Dist. of AZ, 2008)("This was not an Anders brief.
As a result, Petitioner was not entitled to Anders review and
the [] court did not err by failing to conduct such a review.").
Although the Sixth Circuit has addressed circumstances where
Appellate Counsel has filed no Brief at all 6 , it has not
squarely addressed the circumstances that faced Petitioner,
neither in past cases, nor the instant case.

This is not to say

that the Circuit only applies the rule-of-thumb approach - in
Anders-type matters.

Where a particularized analysis of the

situation is warranted, the Circuit has in past cases taken note.
See, e.g., United States v. Gutierrez, U.S. App LEXIS 20647, at 2
(6th Cir. 2017)(Counsel moved to withdraw, post-Anders brief,
then withdrew that motion anticipating the ruling in Beckles v.
United States, 137 S.Ct. 886 (2017).

When his argument was fore­

closed by that decision, "counsel ha[d] therefore again moved to
6.

See, e.g., Allen v. United States, 938 F.2d 664, 666 (T991)'
(failure to file Anders gives rise to presumption of prejudice);
Ludwig v. United States, 162 F.3d 456, 459 (6th Cir. 1998)
(failure is prejudicial "without regard to the probability of
success on appeal").
25

>

• 4

withdraw."

The Sixth Circuit did address, in part some of the

issues affecting Petitioner, namely, communication with appointed
counsel, incarceration, and so forth in 1974.
"In the context of this case, appellant's right to
appeal could have been denied either by refusal or
neglect of the attorney in perfecting the appeal, or
by his failure to make himself available to the
appellant so that the merits of an appeal could be
discussed and the appellant afforded an opportunity
to make an informed decision.... [Counsel] has the
duty to communicate [] opinion[s] to his client in
a timely manner so that the client might consult
another attorney or call the matter to the attention
of the court. The duty of an attorney to communicate
with his client fully and promptly is particularly
compelling .when the latter is incarcerated."
Boyd v. Cowan, 494 F.2d 338, 339 (6th Cir. 1974)
(emphasis added)
This case has never been overturned by an En Banc ruling, and if
the Circuit is to be held, to its own Salmi standard, it means
that Boyd v. Cowan is valid law.

Focusing on the conduct of

Petitioner, the Clerk, and the Court of Appeals, Petitioner did
"call the matter to the attention of the court", repeatedly.
Correspondence forwarded to the Clerk on two early occasions,
the letter/submission requesting new counsel, a second such motion
of 64 total pages, a Motion for Reconsideration, and finally, the
Petition for Rehearing/Petition for Rehearing En Banc.

The Court

failed to take notice, either due to the Clerk's own conduct in
denying motions and/or failing to forward them to the Court,
or of its own failure to ensure the Due Process and Equal Pro­
tection Rights of Petitioner, in consideration of its Own
decisions in earlier cases, its precedents, and/or the rulings
of the Supreme Court.

In fact, only the third of these is needed:
26

L

■

4

"As we have repeatedly emphasized, however,
circuit precendent does not constitute 'clearly
established Federal law, as determined by the
Kernan v. Cuero, 199 L.Ed 2d
Supreme Court. I It __________________
236, 242 (2017)(citing Glebe v. Frost, 574 U.S.
, 190 L.Ed 2d 317 (2014)(quoting 28 U.S.C.
§2254(d)(1)).
Other Circuits Have addressed Circumstances Similar To Appellant's
Although the Sixth Circuit has not, and the Supreme Court
has never entertained the question, other Circuits have encountered and addressed the matter.

That is, the Due Process impli­

cations when an Appellate either cannot sever himself from the
Counsel appointed to him (because he has no right to self- •
representation on appeal, and cannot afford to retain counsel),
and the insufficient "merits brief" filed without his knowledge
or consent.
In the Eighth Circuit, United States v. Meeks, 639 F.3d 522
(8th Cir. 2011) concerned a merits brief where Anders-type issues
were argued, rather than presenting those same issues within a
true Anders Brief, affording the Appellant the other provisions
incorporated in Anders procedures to ensure the Appellant's Due
Process rights..The Eighth Circuit encountered the same type of
circumstances shortly thereafter, and held to their position from
Meeks.
"This Court notes that 'the presentation of
so-called Anders issues' within a merits brief
• is inconsistent with the process established in
Anders." United States v.. Borought, 649 F.3d
887, 890 (8th Cir. 2011)(citing Meeks).
-27

I

The Seventh Circuit, in the case quoted below, comes
closest to the brief portion of Petitioner's circumstances
(even if it does not address the Clerk's conduct or that of
the Circuit in supervising the Clerk or failing to address the
matter on Rehearing).
"[T]he argument (Counsel] presented was a certain
loser. We suspect this exercise in futility was
effectively a substitute for an Anders brief.
Because [Counsel] made a single argument that any
reasonable attorney would have recognized as dead
on arrival, we have a situation close to the one
described in Smith v. Robbins, where counsel
erroneously refrains from filing a merits brief
at all." Shaw v. Wilson, 721 F.3d 908, 915
(7th Cir. 2013)(referencing Smith v. Robbins,
528 U.S. 259 (2000)).
In both Circuits, the approach was to catch the error and
correct it immediately, not simply deny the appeal, and leaving
the matter of a possible Ineffective Assistance of Appellate
Counsel claim to an indigent prisoner who under Pennsylvania
v. Finley will not have a right to appointed counsel on §2255,
not to mention the numerous other 'higher bar' obstacles faced
on collateral attack as opposed to Direct Appeal * 7

The: rele­

gation of Petitioner to the limited collatral attack, when the.
error at the Circuit is apparent and the circumstances plain,
is an obvious prejudice that is avoidable and is within this

n
Court's power to correct by addressing the Circuit split and/or
7.

"It has been said by a thousand courts and a thousand judges that alleged
errors and irregularities [ ] can not be inquired into on habeas corpus ....
No matter how flagrant the error, the party must prosecute his appeal, writ
of error, or certiorari; his remedy is not by habeas corpus." William S.
Church, Treatise on Writ of Habeas Qorpus, §363, (2013 Ed.).
28. -

e.

• .<*

further explain the meaning of Anders and its requirements in
such situations, for the purpose of ensuring uniformity throughout
all Circuits.
Turning to the Circuit's Order of 4-24-2020 (APPENDIX "A"),
the evidence of the "dead on arrival" issue filed by Appellate
Counsel is found on pages 2-3, where United States v. Wright,
among additional cases, is cited to conclusively show that the
issue has been well-settled. "(43 Fed. Appx. 848, 852-53 (6th
Cir. 2002)('concluding that section 2925.03(A)(2) is a "con­
trolled substance offense" under USSG 5>4B1 .1 ) ) " .
On that same page, the Circuit cited United States v.
Gonzalez-Lopez, 548 U.S. 140, 151 (2006) for the proposition that
"Conway's 'right to court-appointed counsel on appeal...does not
include a right to counsel of choice.

I II

The power of granting

substitute appointed counsel on appeal, however, does exist in
the supervisory power that the Circuit has over its own Court.
There is evidence of this power being exercised by the Circuit.
"Petitioner in the present case was represented
at all stages by Counsel. Petitioner did not
attempt to change attorneys until after the
briefing was completed. This request was granted....
Thus Petitioner was not denied the counsel of his
choice on appeal." Carpenter v, Morris, U.S. App
LEXIS 155555, at 6 (6th Cir. 1990).
Petitioner attempted, repeatedly,

Compare this case to Petitioner.

to "change attorneys" before the brief was filed and afterwards
29

e ■

■ o

as well (Carpenter only after), but where Petitioner was
repeatedly denied in his requests, Carpenter's request was
granted.

Petitioner's Due Process and Equal Protection

rights, case-specific to him, were violated, when the exercise
of discretionary authority and power of the Circuit favored
Carpenter (as well as the other conflicting cases vis-a-vis
Petitioner's treatment), and the opposite decision by the
Circuit, by being opposite, was prejudicial. Furthermore, by
basing their decision upon Gonzalez-Lopez, it becomes more
clear that their actions were an abuse of discretion, and not
an overt break with the Supreme Court in that case.

The break

comes from the other cases cited herein, individually and cumu­
latively, such as Douglas, where the wealthy man can retain,
dismiss, and retain new counsel when Counsel does not communicate
or submits an AnderS-quality brief disguised as a merits brief.
And also the pro se construction cases, Haines and Erickson, that
are meant to provide Due Process and access to the court safeguards for non-attorneys,

Obviously also in Anders itself,

which corrected the problem of attorneys not filing any brief
at all, doubly protecting those appellants that (1) counsel
must file a merits or Anders brief, and (2) if it is the latter,
(2a) the appellant may submit a brief, (2b) the Court investi­
gates the Record, and (3) if issues are located, new counsel
is appointed,

Appointment of new appellate counsel is not

necessarily the same thing as "counsel of choice".
30

In

c

•a

Petitioner's case it was to obtain an attorney who would do
basic research, and discover that "his" issue was not tenable,
but then fulfill the Anders requirements, and not submit a bogus
merits brief.

By not addressing these matters, the Sixth Circuit

not only endorses such conduct by appointed attorneys, it fails
in its duty to uphold the Constitution and the rulings of this
Court for appellants.
As to the other case cited in the Opinion (APPENDIX "A"),
Greer v. Mitchell, 264 F.3d 663, 676 (6th Cir. 2001), it appears
that the case follows the line of Smith v. Murray, 477 U.S. 527,
536 (1986) and Jones v. Barnes, 463 U.S. 745, 751-52 (1989).
If so, Petitioner asserts that both Smith and Jones do not
encompass Petitioner's circumstances,

Therein, appellants

wanted issues raised along with valid issues raised in the
Petitioner's merits brief was that only in name,

merits brief.
not'content.

Petitioner's brief as authored by appointed Counsel

was nothing but frivolous,
process at all.

There was no "winnowing out" (Id.)

Greer, as cited by the Panel states that

"appointed counsel has no obligation to raise issues that he or
she deems lack merit."

The issue Counsel did deem meritorious

was anything but that.
Petitioner filed his Notice of Appeal at the District Court.
Cumulatively, the Clerk of the Court of Appeals, the Panel, and
the Circuit Court constructively denied him of that appeal.
31

4 '

Conclusion
Wherefore, in consideration of the Constitution, law,
facts, circumstances, and case law cited herein, the Honorable
Justices of the Supreme Court of the United States should
GRANT the instant Petition for Writ of Certiorari, alternatively,
REMAND the case back to the Sixth Circuit with Order to remove
the Decision and Mandate, and reinstate Petitioner's Direct
Appeal, appointing new Appellate Counsel, and any other Relief
to which the Honorable Justices deem Petitioner is entitled.
It is so prayed.
Respectfully submitted on this

/

Jo) £rj vdj) & .
DONALD R. CONWAY ^

Address:
DONALD R. CONWAY
21792-032
Federal Medical Center
Post Office Box 14500
Lexington, KY 40512

32

day of September, 2020.

